KYLE D. HAWKINS
Solicitor General

(512) 936-1700
Kyle.Hawkins@oag.texas.gov

October 9, 2020
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

No. 20-31, Price McCoy, Sr. v. Tajudeen Alamu

Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4 and the Court’s Order of March 19,
2020, Respondent Tajudeen Alamu respectfully moves for a second extension of the
time for filing his response to the petition for certiorari in this case. Petitioner has
advised that he does not oppose the requested extension.
On August 26, this Court requested that Respondent file a response to the
petition by September 25, 2020. On September 11, the Court extended the time to
file the response to October 26. Respondent now requests a further 30-day extension
of that deadline, creating a new filing date of November 25, 2020.
This extension is necessary because the workload of undersigned counsel and
counsel assisting him has continued to increase significantly due to COVID-19related litigation against the State of Texas and its officials, as well as numerous
emergency and expedited election-related cases. Those matters include:
• Planned Parenthood Ctr. for Choice v. Abbott, No. 20-305 (U.S.) (brief in
response to petition for certiorari due November 9, 2020);
• Tex. Democratic Party v. Abbott, No. 20-50407 (U.S.) (brief in response to
petition for certiorari due November 23, 2020);
• Tex. All. for Retired Ams. v. Hughs, No. 20-40643 (5th Cir.) (application for
P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

Page 2
stay filed September 28, 2020; reply filed September 30; merits briefing
deadlines pending);
• Richardson v. Hughs, No. 20-50774 (5th Cir.) (application for stay filed
September 11, 2020; reply filed September 15; merits briefing deadlines
pending); and
• Texas v. Hollins, No. 20-0729 (Tex.) (emergency opening brief filed
September 22, 2020; reply due September 28; oral argument September 30).
These cases are in addition to longstanding oral argument obligations both in this
Court and the Supreme Court of Texas, including:
• Texas v. New Mexico, Orig. 65 (U.S.) (oral argument October 5, 2020);
• In re Academy Sports + Outdoors, No. 19-0497 (Tex.) (oral argument October
6, 2020);
• In re Tex.-N.M. Power Corp., No. 19-0656 (Tex.), In re Oncor Elec. Delivery Co.
LLC, No. 19-0662 (Tex.), In re CenterPoint Energy Hous. Elec., No. 19-0777
(Tex.) (oral arguments October 8, 2020)
• Patients Med. Ctr. v. Facility Ins. Corp., No. 19-0533 (Tex.) (oral argument
October 27, 2020)
• In re Brown, 19-0877 (Tex.) (oral argument October 29, 2020); and
• California v. Texas, No. 18-840 (U.S.) (oral argument November 10, 2020).
For the foregoing reasons, Respondent Tajudeen Alamu respectfully requests a
second 30-day extension of the deadline to file his response to the petition for a writ
of certiorari, creating a new deadline of November 25, 2020.
Respectfully submitted.
/s/ Kyle D. Hawkins
Kyle D. Hawkins
Solicitor General
Counsel of Record
cc: Samuel Weiss (via e-mail)

P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

